September 30, 2003

THOMAS G. DAY
VICE PRESIDENT, ENGINEERING

SUBJECT: Audit Report - Delivery Bar Code Sorter – Expanded Capability
         (Report Number DA-AR-03-007)

This report presents the results of our self-initiated review of the Delivery Bar Code
Sorter – Expanded Capability (Project Number 02BG025DA000). During the survey, we
identified concerns in the areas of testing and machine utilization, which if left
unresolved could negatively impact performance of the Delivery Bar Code Sorter –
Expanded Capability (DBCS-EC). In addition, these concerns could affect future Postal
Service initiatives.

                                                 Background
On August 7, 2000, the Board of Governors approved $55.3 million in capital funds
and $750,000 in expense funds for the development of DBCS-EC1 systems. On
September 8, 2000, the Postal Service issued a letter contract for this project. On
September 28, 2001, the Postal Service awarded the contractor a $48.3 million firm-
fixed price contract. In April 2003, the Postal Service completed deployment of all
84 DBCS-EC machines.

The purpose of the DBCS-EC machine is to allow thick and flimsy (bulky) 2 letter mail,
which is primarily processed manually,3 to be sorted on the Delivery Bar Code Sorter
machines. In March 2001, preproduction testing was performed, and the DBCS-EC
machine did not meet many of the statement of work performance requirements. In
November 2001, a first article machine was built and tested. This test was terminated
after 2 weeks due to unacceptable levels of mail damage. Afterwards, the contract was
modified lowering several performance requirements. A second test was conducted
during February 2002. The results of this test did not meet the modified contract


1
  The Delivery Bar Code Sorter (DBCS) is a multi-level high speed bar code sorter for letter mail, which sorts mail in
delivery walk sequence eliminating the need for additional sorting at the delivery unit.
2
  Bulky expanded capability mail is thick and flimsy letter mail that meets certain height, thickness, and weight
ranges, which cannot generally be processed on the regular DBCS machine.
3
  The Decision Analysis Report states that although manual mail represents only around 8 percent of the total letter
mail in processing plants, over 50 percent of letter processing hours are spent in processing this volume.
Delivery Bar Code Sorter – Expanded Capability                                                        DA-AR-03-007



requirements for the rate of damaged mail. Also, the test revealed excessive amounts
of maintenance time were required to keep the machine operational.

After the two First Article Test failures4 of the DBCS-EC, an operational evaluation,
referred to as the Live Mail Study was performed. The purpose of the evaluation
was to allow the contractor another opportunity to demonstrate the capability of their
DBCS-EC, which the Postal Service could utilize to gain some economic efficiency.
The Live Mail Study demonstration was not a pass or fail test such as a First Article
Test, which is used to verify compliance with statement of work and Decision Analysis
Report requirements prior to deployment authorization. After evaluation of the study, a
decision was made to deploy.

                            Objectives, Scope, and Methodology
The objectives of the audit were to determine the adequacy of testing and evaluate
machine utilization. During the course of our audit, we made several visits to sites with
the machines including the First Article Test site in St. Louis, Missouri. We also
interviewed Postal Service officials at headquarters and the Maintenance Technical
Support Center, reviewed applicable policies and procedures, reviewed relevant
documentation, and consulted with Office of Inspector General (OIG) experts. Also, we
distributed a judgmental survey to many of the deployment sites to get feedback on
overall machine performance.

This audit was conducted from October 2002 through September 2003, in accordance
with generally accepted government auditing standards and included such test of
internal controls, as were considered necessary under the circumstances. We
discussed our conclusions and observations with appropriate management officials and
included their comments, where appropriate.

                                         Prior Audit Coverage
We did not identify any prior audits or reviews related to the objective of this audit.

                                                    Results
The Postal Service’s business decision to continue the DBCS-EC program without fully
addressing the First Article Test failures did not ensure that the DBCS-EC could
effectively process bulky mail without damaging the mail. We question management’s
decisions to disregard the results of the First Article Tests and subsequently revalidate
performance through a demonstration, while also eliminating contractual requirements.
Consequently, it appears management was disregarding the machines inability to meet
the program objectives. We determined the Live Mail Study was a demonstration and

4
 The contractor was told to stop work on deployment preparation, and to focus on correcting deficiencies identified
during First Article Testing.



                                                          2
Delivery Bar Code Sorter – Expanded Capability                                              DA-AR-03-007



not a pass/fail test of contractual requirements, like a First Article Test. Also, the Test
Evaluation and Quality group did not participate in the Live Mail Study. Thus, we
question the independence of the demonstration and the data reliability. In addition, we
found that many of the deployment sites are processing only small percentages of bulky
mail and are utilizing the machine to process regular automation mail. If this continues,
the efficiencies and savings of processing the bulky type mail on the DBCS-EC, which
justified the program’s approval, may not be realized.

The above issues impact another program in development, the Delivery Bar Code
Sorter Input Output Subsystem-Expanded Capability (DIOSS-EC). This program
utilizes similar technology. This program is part of a major effort to replace most of the
multiline optical character readers. Postal Service management needs to address these
issues during the development and deployment of the new DIOSS-EC.

Testing Process Was Incomplete

The Live Mail Study indicated a significant reduction in major damage to mailpieces
occurred during the demonstration. Afterwards, the Postal Service made a business
decision5 to continue the program, modify the Decision Analysis Report,6 and begin
deployment. Equipment deployment started September 2002.

However, the demonstration was not an independent evaluation and did not ensure the
system performed satisfactorily for the following reasons:

    •   The Test Evaluation and Quality Group did not manage, conduct, evaluate, and
        assess the results of the Live Mail Study, nor develop the test plan. The Live
        Mail Study indicates that the results from the second First Article Test were in
        dispute.

    •   The Live Mail Study results did not meet all the statement of work requirements,
        and some testing criteria and requirements were eliminated rather than being
        retested. The second First Article Test report states that the extremely high
        damage rate of the thick and bulky test decks during the test was a major
        problem. Subsequently, program management eliminated the contractual
        requirements for testing the bulky mail test decks and did not use them during
        the Live Mail Study.



5
 The possibility of terminating the contract was explored. Nearly $27 million of the $55 million approved
for the program had been expended without any deployment. Termination was not recommended and
deployment was approved.
6
  A Decision Analysis Report modification was approved in August 2002, which changed the scope of the
program from upgrading existing machines to purchasing new machines without any changes to the
funding requirements.




                                                    3
Delivery Bar Code Sorter – Expanded Capability                                                         DA-AR-03-007



    •    In September 2002, the DBCS-EC contract was modified, which eliminated all
         First Article Test performance issues. Due to this modification, the Live Mail
         Study allowed the program to proceed into production.

The Live Mail Study report states that after the contractor made final operating
procedure changes, mail damage and maintenance time were significantly reduced.
This may have occurred because the contractor had the leeway7 to choose mail to
process, providing the opportunity to improve the damage rates and reduce machine
downtime. The statement of work requirement for the DBCS-EC was to have a greater
ability to process mail types than existing Postal Service equipment.

We question how a demonstration, not a properly conducted test, can be a basis for
approval8 to deploy equipment. A previous audit report on the Test Evaluation and
Quality group noted through benchmarking that effective test groups had significant
involvement in determining whether equipment was accepted or rejected. However, the
Test Evaluation and Quality group was not involved in the decision to deploy. We will
continue to monitor engineering management’s departure from this best practice for
effective acceptance processes.

Further, the DBCS-EC Decision Analysis Report stated that the approach to purchasing
a small number of the new machines would ensure thorough testing before more
complex DBCS’s equipped with other subsystems are modified. Engineering recently
initiated a multiline optical character reader replacement program. The program is in
development and a formal approval decision is not scheduled until later this year. Part
of the planned program includes purchasing new DIOSS-EC machines.9 An
Engineering program official indicated that several hundred of the DIOSS-EC machines
might be purchased under this program.

Recommendation

We recommend the vice president, Engineering:

    1.    Direct the Test Evaluation and Quality group to evaluate the DBCS-EC testing
          process and results, and ensure all testing of the DIOSS-EC is conducted under
          the direction and approval of the group.



7
  According to the Live Mail Study plan, the contractor was allowed to choose mail to process, but limited to
deselecting pieces that do not fit the specific size descriptions of bulky mail. The plan also indicates that the
contractor was allowed to evaluate mail and accept or reject the mail as being able to run on the DBCS-EC.
8
  The Decision Analysis Report modification states that the Live Mail Study operational evaluation, was not a full
scope First Article Test, but it gave the Postal Service an opportunity to evaluate the DBCS-EC under operational
conditions. Also, the Live Mail Study indicated that the results of the demonstration in no way resolve or waive any
contractual requirements or outstanding DBCS-EC First Article Testing criteria.
9
  The DIOSS-EC comes equipped with expanded capability stackers and feeders. It is supposed to be an
improvement over the 84 DBCS-EC’s. Its reader/elevator is increased by 6 feet to better handle the bulky mail.




                                                          4
Delivery Bar Code Sorter – Expanded Capability                                                          DA-AR-03-007



Management’s Comments

Management agreed with our recommendation stating that the Engineering Test,
Evaluation and Quality group should review and evaluate the DBCS-EC testing process
and results prior to and in preparation for the DIOSS-EC testing, which is scheduled for
January 2005. In addition, management states that the current plan is to have the
group conduct the DIOSS-EC First Article Testing. Management’s comments, in their
entirety, are included in the appendix of this report.

Evaluation of Management’s Comments

Management’s comments are responsive to the recommendation. Management’s
actions taken or planned should correct the issues identified in the report. We plan to
begin a review during calendar year 2004 of the multiline optical character reader
replacement program, which includes the DIOSS-EC component. As such, we plan to
follow up on these planned actions.

Sites Indicate DBCS-EC not Fully Utilized as Intended

The Postal Service completed deployment of all 84 DBCS-EC machines in April 2003.
We sent surveys to 20 of the sites to determine utilization. They indicated they were
generally utilizing the new machines to sort various types of letter mail. Many of the
sites claimed they were processing only small percentages of the bulky mail and mostly
processing regular automation mail10 on the DBCS-EC machines. The low usage of
these machines for bulky type mail appears to be caused by the following:

     •   A lack of bulky type mail available at certain plants.

     •   Plant personnel are still manually processing bulky mail and using other
         automated equipment11 besides the DBCS-EC despite headquarters guidance.

     •   Plant personnel expressed concerns about the DBCS-EC ability to efficiently
         process bulky mail and excessive machine maintenance.

Headquarters, Engineering, and Operations were unable to determine what quantities of
bulky mail were being processed on the DBCS-EC machines. Also, they did not have
specific goals for processing bulky mail. As a result, there was no assurance that the


10
   The DBCS-EC can process both regular automation and expanded capability bulky mail. Program management
and headquarters Operations could not state definitely what percentages of these two types of mail the new
machines should be processing. An operator’s manual indicated that the machine should be able to process about
26 percent of a plants total manual expanded capability mail. We found most plants were processing much less than
this percentage of the total plant available expanded capability bulky volume.
11
   A headquarters Operations official indicated that at this time a number of sites still utilize the multiline optical
character reader Bulky and Mail Processing Bar Code Sorters – Chunky to handle the manual type volumes and are
using the DBCS-EC as a regular DBCS to process delivery point sequenced mail.



                                                           5
Delivery Bar Code Sorter – Expanded Capability                              DA-AR-03-007



efficiencies and savings estimates for processing bulky mail on the DBCS-EC will be
realized.

Recommendation

We recommend the vice president, Engineering:

    2.   Determine whether the DBCS-EC actual performance for processing bulky type
         mail is sufficient to meet the Decision Analysis Report projected savings.

Management’s Comments

Management agreed with our recommendation stating that efforts are in place to
review and address equipment performance. A review is expected to be completed
October 15, 2003.

Evaluation of Management’s Comments

Management’s actions taken or planned should correct the issues identified in the
report. When we begin a review of the multiline optical character reader replacement
program in calendar year 2004, we will look at the DBCS-EC performance data and any
design changes in conjunction with the development of the DIOSS-EC program.

General Comments

Management included comments and concerns about the report’s findings and
conclusions. Management states the decision to purchase and deploy the
84 DBCS-EC machines was sound, clearly supported by the events and situation, and
in the best interest of the Postal Service. Management also commented that the First
Article Test failures were reasonably addressed and the Postal Service received
compensation, after renegotiating, to procure and deploy the 84 new machines.

Response to Management’s General Comments

We partially agree with management’s statement in the report that they made a
business decision to purchase and deploy DBCS-EC machines given the situation and
the events. We also noted at the time of the decision the program had expended
significant funds without any deployment of equipment.

However, in its comments, management did not clearly agree or disagree with our
conclusions regarding the lack of independence and data reliability for the Live Mail
Study and the lack of follow up of the First Article Test failures. We agree the Test,
Evaluation and Quality group did follow the testing process policies. The group issued a
final test report, which stated that serious performance issues existed at completion of
the second First Article Test. However, we found no indication the group was included



                                                 6
Delivery Bar Code Sorter – Expanded Capability                                DA-AR-03-007



in resolving documented concerns, or consulted to develop the Live Mail Study and
validate the test data. After the First Article Test dispute and the live mail study,
changes were made to the statement of work, which essentially eliminated all First
Article Test performance issues. We may look into this process more closely in a
planned audit of the functioning and effectiveness of the Technology Acquisition
Management group.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Tracy A. LaPoint,
director, Developmental, at (703) 248-2100 or me at (703) 248-2300.



Ronald D. Merryman
Deputy Assistant Inspector General
 for Technology/Oversight

Attachment

cc: John A. Rapp
    Mary Anne Gibbons
    Thomas P. Shipe
    Walter F. O’Tormey
    Sammy J. Seals
    John F. Keegan
    Susan M. Duchek




                                                 7
Delivery Bar Code Sorter – Expanded Capability        DA-AR-03-007



                              MANAGEMENT’S COMMENTS




                                                 8
Delivery Bar Code Sorter – Expanded Capability       DA-AR-03-007




                                                 9
